<html>
<title> - AFRICOM: RATIONALES, ROLES AND PROGRESS ON THE EVE OF OPERATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
AFRICOM: RATIONALES, ROLES AND PROGRESS ON THE EVE OF OPERATIONS--PART 
                                   2

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2008

                               __________

                           Serial No. 110-186

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-637                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
JACKIE SPEIER, California
                       Dave Turk, Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2008....................................     1
Statement of:
    Bishop, Ambassador Jim, vice president, humanitarian policy 
      and practice, InterAction; Kathleen Hicks, senior fellow, 
      International Security Program, Center for Strategic and 
      International Studies; Mark Malan, peacebuilding program 
      officer, Refugees International; and Dr. J. Stephen 
      Morrison, Director, Africa Program, Center for Strategic 
      and International Studies..................................     9
        Bishop, Jim..............................................     9
        Hicks, Kathleen..........................................    16
        Malan, Mark..............................................    23
        Morrison, J. Stephen.....................................    32
Letters, statements, etc., submitted for the record by:
    Bishop, Ambassador Jim, vice president, humanitarian policy 
      and practice, InterAction, prepared statement of...........    12
    Hicks, Kathleen, senior fellow, International Security 
      Program, Center for Strategic and International Studies, 
      prepared statement of......................................    19
    Malan, Mark, peacebuilding program officer, Refugees 
      International, prepared statement of.......................    26
    Morrison, Dr. J. Stephen, Director, Africa Program, Center 
      for Strategic and International Studies, prepared statement 
      of.........................................................    35
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


AFRICOM: RATIONALES, ROLES AND PROGRESS ON THE EVE OF OPERATIONS--PART 
                                   2

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Shays, Lynch, McCollum, 
Welch, Platts, and Foxx.
    Staff present: Dave Turk, staff director; Davis Hake, 
clerk; Andy Wright, counsel; Rebecca Macke, graduate intern; A. 
Brooke Bennett, minority counsel; Mark Lavin, minority Army 
fellow; and Nick Palarino, minority senior investigator and 
policy advisor.
    Mr. Tierney. Good morning. A quorum being present, the 
Subcommittee on National Security and Foreign Affairs hearing 
entitled, ``AFRICOM: Rationales, Roles and Progress on the Eve 
of Operations--Part 2,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for five business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    Today, we are going to conduct our second oversight hearing 
on the U.S. military's newest combatant command, AFRICOM. These 
hearings represent a year-long bipartisan investigation into 
AFRICOM, which is to reach full operating capability by 
September 30, 2008.
    On the exact day that we were holding our first AFRICOM 
hearing, last Tuesday, July 15th, Defense Secretary Gates was 
delivering an important and candid speech to the U.S. Global 
Leadership Campaign. I would like to compare a few things our 
subcommittee was told by our Department of Defense witness at 
that hearing juxtaposed against those statements made by 
Secretary Gates.
    Theresa Whelan, the Deputy Assistant Secretary of Defense 
for African Affairs, stated to us, ``there are fears that 
USAFRICOM represents a militarization of U.S. foreign policy in 
Africa and that USAFRICOM will somehow become the lead U.S. 
Government interlocutor with Africa. This fear is unfounded.''
    In contrast, Secretary Gates was saying, ``Overall, even 
outside Iraq and Afghanistan, the U.S. military has become more 
involved in a range of activities that in the past were 
perceived to be the exclusive province of civilian agencies and 
organizations. This has led to concern among many organizations 
. . . about what is seen as a creeping `militarization' of some 
aspects of America's foreign policy. This is not an entirely 
unreasonable sentiment.''
    Ms. Whelan continued, ``The intent is not for DOD 
generally, or for USAFRICOM at the operational-level, to assume 
the lead in areas where State and/or USAID have clear lines of 
authority as well as the comparative advantages to lead.''
    And Secretary Gates was saying, ``In recent years the lines 
separating war, peace, diplomacy and development have become 
more blurred and no longer fit the neat organizational charts 
of the 20th century.''
    So we have dueling assessments given on the very same day 
by top officials from the very same department offering an 
interesting juxtaposition that could only happen in Washington, 
DC. They also underscore the fact that our first AFRICOM 
hearing raised more questions than it answered, and that is why 
we are having a second hearing here today.
    As became clear at the first hearing, AFRICOM presents 
traditional oversight issues like costs, personnel and 
infrastructure. But AFRICOM also presents broader questions 
about how the United States should best organize itself so 
that, to use Secretary Gates's words, we may ``act with unity, 
agility and creativity'' in pursuit of our national security 
and foreign policy goals.
    AFRICOM presents these fundamental questions during a post-
cold war, post-9/11 environment in which we continue to grapple 
with the asymmetric threats of terrorism and potential breeding 
grounds in ungoverned spaces as well as in relation to a 
continent that has been wracked by poverty, disease and war.
    Despite the testimony by the Defense Department's Theresa 
Whelan that ``[w]hen assisting in non-military activities like 
humanitarian assistance, we will do it in support of another 
USG agency so we ensure we meet their requirements and achieve 
their desired effects,'' concerns remain over AFRICOM's role.
    As noted by Lauren Ploch with the Congressional Research 
Service, some question whether the Defense Department's actions 
will remain ancillary in nature or whether the military will 
``overestimate its capabilities as well as its diplomatic role 
in Africa or pursue activities that are not a core part of its 
mandate.''
    Highlighting this concern is a newly released Refugees 
International report authored by one of today's witnesses that 
explores, what it terms, the current ``civil-military imbalance 
for global engagement.''
    Refugees International notes that ``between 1998 and 2005, 
the percentage of Official Development Assistance the Pentagon 
controlled exploded from 3.5% to nearly 22% while the 
percentage controlled by the U.S. Agency for International 
Development shrunk from 65% to 40%.''
    The issues AFRICOM highlights go to the heart of how the 
U.S. agencies primarily responsible for achieving U.S. national 
security objectives--the State Department, the Defense 
Department, USAID--will and should interact in foreign 
contexts.
    Today, we have convened a distinguished panel of non- 
governmental experts in order to advance the dialog on these 
critical questions, including: What are the consequences of 
establishing AFRICOM? What missions should AFRICOM undertake? 
What are the implications of so-called phase zero operations, 
that is, those aimed at building and maintaining a stable 
security environment?
    How might the interagency work within AFRICOM as well as 
among AFRICOM and the State Department, USAID, other Government 
departments and the various bilateral embassy country teams 
throughout Africa?
    How might AFRICOM interact with non-governmental 
organizations that are involved in humanitarian and 
developmental work? And, what are the risks to NGO's and what 
can be done to avoid them?
    Are we experiencing a broader militarization of our foreign 
policy? Is that a problem and, if so, why and what are we going 
to do about it?
    Finally, how should the U.S. Government organize itself to 
achieve a whole of government approach to national security 
strategy? In other words, what is the right model, platform and 
Government structure required to achieve that ``unity, agility 
and creativity'' echoed recently by Secretary Gates.
    I want to thank all of our witnesses for being here today 
as well as those interested in the seating area. I look forward 
to our discussion, and now I would like to turn to our ranking 
member, Mr. Shays, for his opening remarks.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] 51637.001
    
    [GRAPHIC] [TIFF OMITTED] 51637.002
    
    [GRAPHIC] [TIFF OMITTED] 51637.003
    
    Mr. Shays. Thank you, Chairman Tierney, for holding today's 
hearing and continuing this subcommittee's bipartisan oversight 
of the new combatant command for Africa.
    The continent of Africa cannot and should not be ignored. 
The level of poverty in Africa is almost unimaginable. The lack 
of access to clean water inhibits human development, and 
hopelessness reigns in refugee camps. I saw this firsthand in 
the refugee camps in Darfur.
    The African continent has always been important to the 
United States and not only because of an abundance of natural 
resources. The United States has always had a strong heritage 
of partnership, helping African nations strengthen their 
democratic institutions and helping their governments provide 
opportunities for their people.
    But with discontent and extreme poverty growing in Africa, 
I am deeply concerned by the reports that the continent is 
becoming a breeding ground and a safe haven for terrorists. It 
is clear that terrorist organizations including al Qaeda are 
operating openly across the African continent.
    The April 2008 U.S. State Department Country Reports on 
Terrorism states that the most serious threats to U.S. 
interests are posed by al Qaeda operatives in Somalia, while 
the State Department also reported few ``significant 
international terrorist incidents, organizations like al Qaeda 
continue to draw recruits from Africa, run mobile training 
camps and occupy the ungoverned spaces in the continent.''
    Many believe helping African nations become prosperous is 
AFRICOM's intended role while others believe AFRICOM's mission 
should follow the traditional purpose of the combatant command 
to prepare for potential military action. The bottom line is 
AFRICOM's missions must utilize smart power, combining soft and 
hard power, and having a meaningful balance of military and 
civilian personnel.
    The Department of Defense, DOD, has already engaged in soft 
power such as training and peacekeeping, counter- terrorism and 
counterinsurgency, and military education to build partnerships 
and capacity to help professionalize militaries. However, in 
light of the challenges facing Africa, even this is not enough.
    Addressing the developmental challenges faced by African 
nations is familiar territory for U.S. relief workers and 
development professionals already working in Africa. The U.S. 
Agency for International Development as well as organizations 
like the Peace Corps, Mercy Corps and Save the Children have 
spent decades addressing instability by providing basic needs.
    As the leaders of AFRICOM focus their attention on soft 
power solutions, they have much to learn from the intimate 
knowledge and experience of development and diplomatic 
professionals.
    We have also heard that only 13 of 993 personnel slots at 
AFRICOM will be for non-DOD civilians. This does not seem like 
enough. The development challenges facing African nations today 
require a dynamic and nimble organization that brings together 
all key interagency actors to deliver the full economic, 
diplomatic and military resources of the U.S. Government. 
Bringing the necessary level of civilian staff into AFRICOM's 
interagency process must be a top priority for both the 
Departments of Defense and State.
    Mr. Chairman, we are here today to understand the future 
role of AFRICOM and how it will bring health and prosperity to 
Africa. I look forward to hearing from each of our witnesses 
today on these issues, and I thank you again.
    Mr. Tierney. Thank you, Mr. Shays.
    The subcommittee will now receive testimony from the 
witnesses that are before us today, and I would like to just 
give a brief introduction of each of them before we start.
    Ambassador Jim Bishop is the vice president for 
Humanitarian Policy and Practice at InterAction, the largest 
coalition of U.S.-based non-governmental organizations. He has 
served as U.S. Ambassador to Somalia, Liberia and Niger. He was 
also a Deputy Assistant Secretary of State for Africa during 
the Reagan administration.
    Ambassador, I want to thank you for your service as well as 
for the expertise you will be sharing today.
    Ms. Kathleen Hicks is a senior fellow in international 
security at the Center for Strategic and International Studies. 
She specializes in interagency reform, military roles and 
missions and national security strategy. Her most recent 
projects with CSIS include Beyond Goldwater-Nichols Interagency 
Reform as well as the Task Force on Nontraditional Security 
Assistance.
    Ms. Hicks formerly served in the Department of Defense as 
Director of Policy Planning for the Under Secretary of Defense 
for Policy, and it is good to have you here with us today as 
well.
    Mr. Mark Malan is a peacebuilding program officer with 
Refugees International. He recently authored a July 2008 report 
entitled, ``U.S. Civil-Military Imbalance for Global 
Engagement: Lessons from the Operational Level in Africa.'' Mr. 
Malan is also the executive coordinator for the D.C.-based 
Partnership for Effective Peacekeeping. He is a 20-year veteran 
of the South African Military and has served as a senior 
lecturer in Political Science at the South African Military 
Academy.
    Thank you for joining us.
    Dr. Stephen Morrison is the Director of the Africa Program 
at CSIS. He also directs the organization's Task Force on HIV/
AIDS and, with Ms. Hicks, co-directs the Task Force on 
Nontraditional Security Assistance. Dr. Morrison has 
coordinated the Council on Foreign Relations Task Force on 
Africa and also served as Executive Secretary of the Africa 
Policy Advisory Panel commissioned by the U.S. Congress and 
overseen by then Secretary of State, Colin Powell.
    In an earlier life, Dr. Morrison conceptualized and 
launched the Office of Transition Assistance at USAID and 
served as U.S. Democracy and Governance Advisor in Ethiopia and 
Eritrea.
    Now we can see from all that background, we have four very 
substantial experts today. We look forward to your testimony.
    We want to thank you for being with us and ask you, because 
we always swear in our witnesses before they testify, to please 
stand and raise your right hands. If there is anybody that is 
going to testify with you--I don't think there is--they might 
also do the same.
    [Witnesses sworn.]
    Mr. Tierney. The record will indicate that all the 
witnesses answered in the affirmative.
    All of your written statements will be placed on the record 
in their complete form. So we ask you to use your oral 
statements accordingly. Try to get them, if you would, within 5 
minutes or the lights will turn from green to yellow or amber 
with about a minute left and then red.
    We are little bit generous, if we can be, on this committee 
because we have a defined number of people here, and we are 
very interested in what you have to say. But if it looks like 
it is going on a bit longer, I may tap a little bit and ask 
people to wind it up, although I will repeat what I said in the 
interim beforehand. I thought the written testimony was as 
concise and focused as I have seen in a long while, and we 
appreciate that a great deal. It helps us prepare.
    So, Ambassador Bishop, if would you be kind enough to share 
with us your thoughts, you have 5 minutes, sir?

     STATEMENTS OF AMBASSADOR JIM BISHOP, VICE PRESIDENT, 
HUMANITARIAN POLICY AND PRACTICE, INTERACTION; KATHLEEN HICKS, 
   SENIOR FELLOW, INTERNATIONAL SECURITY PROGRAM, CENTER FOR 
STRATEGIC AND INTERNATIONAL STUDIES; MARK MALAN, PEACEBUILDING 
  PROGRAM OFFICER, REFUGEES INTERNATIONAL; AND DR. J. STEPHEN 
 MORRISON, DIRECTOR, AFRICA PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

                    STATEMENT OF JIM BISHOP

    Mr. Bishop. Mr. Chairman and members of the committee, 
thank you for this opportunity to join other panel members in 
testifying before you this morning.
    InterAction and its members engage in humanitarian relief 
and have longstanding relations with the U.S. Armed Forces. 
Since the early nineties, we have engaged with the military to 
help its members understand the value and culture of American 
humanitarian NGO's working abroad.
    We assigned liaison officers to Central Command 
headquarters during the first year of the war in Afghanistan 
and had a liaison officer assigned with the American Military 
in Kuwait City in the months before the onset of the war in 
Iraq.
    In a 2-year negotiation, we reached agreement with the 
Pentagon on the text of a document entitled Guidelines for 
Relations between U.S. Armed Forces and Non-Governmental 
Humanitarian Organizations in Hostile or Potentially Hostile 
Environments. This document was published in 2007 and bears the 
logos of InterAction and the Department of Defense. I mention 
these details to make the point that humanitarian NGO's are not 
hostile to the military and appreciate the mutual benefits of 
communications.
    When we first learned of the administration's intention to 
create AFRICOM, we saw some advantages. A single command for 
all of the continent except Egypt would mean one point of 
contact to obtain information and to seek to influence 
decisions and activities.
    Hopefully, it meant the Pentagon would take Africa more 
seriously and that the post-Black Hawk Down reluctance to get 
some African laterite dust on military boots would dissipate. 
Over time, the new command presumably would develop a cadre of 
genuine experts on Africa.
    But as we listened to the rhetoric announcing the Command 
and to General Ward, Ambassador Yates and other senior members 
of the AFRICOM staff who visited with us, we became concerned. 
Talk about engaging in phase zero operations to forestall 
instability, AFRICOM's professed interest in promoting a whole 
of government approach to stability and security on the 
continent and its intention to operate at a regional level all 
suggested overreach.
    The lines of responsibility and authority among AFRICOM, 
the National Security Council, the State Department and 
American embassies in Africa seemed blurred. We believe the NSC 
and the State Department have the mandates within our 
Government to set regional and sub-regional policies and to 
supervise their implementation. We believe local embassies are 
most appropriate as the primary interlocutors with sovereign 
governments.
    We wondered how long it would be before the 1,500 military 
personnel assigned to the new command would be second-guessing 
the diplomats and professional aid workers at the U.S. 
Government's thinly staffed outposts in Africa.
    We also found some myopia in AFRICOM's apparent intentions. 
There seemed to be an assumption that preserving stability in 
Africa and responding to crises there are primarily American 
responsibilities or responsibilities AFRICOM would help African 
nations and regional organizations shoulder. Missing was any 
acknowledgment of the roles of the United Nations.
    AFRICOM's intention to take over the portfolios of CJTF- 
HOA and the Trans-Sahara Counter-Terrorism Partnership and 
perhaps replicate them elsewhere is disturbing. As part of the 
war on terrorism, both of these programs have military 
personnel undertaking humanitarian and economic development 
projects that mimic those of the NGO's as they try to win the 
hearts and minds of Africans.
    We appreciate the participation of U.S. military forces in 
responding to natural disasters when they can deliver equipment 
not otherwise immediately available to local responders or 
international relief agencies, but the military should be in a 
supporting role. AFRICOM's intention to set up a center where 
it would engage African and foreign relief agencies in dialog 
on disaster response appears to usurp the primary roles in 
disaster response our Government gives USAID's Office of 
Foreign Disaster Assistance and the State Department's Bureau 
of Population, Refugee and Migration Affairs.
    Based on reporting from colleagues in the field, it appears 
that the development programs conducted by CJTF-HOA and under 
the auspices of the Trans-Sahara Partnership, sometimes 
implemented by soldiers in civilian clothing despite the terms 
of the agreed guidelines, are once more blurring the lines 
between civilian aid workers and the military. This puts the 
civilian aid workers at risk where the military are seen by the 
local population and insurgents as supporting an unpopular 
national government as in Ethiopia's Ogaden region and in 
northern Uganda.
    Activities along the Kenya-Somalia border, where innocent 
civilians have become collateral damage as American gunships 
and cruise missiles target accused terrorists, combined with 
U.S. support for Ethiopia's invasion of Somalia, have provoked 
conflict rather than eased it. Humanitarian workers are being 
murdered and taken hostage in Somalia at such a rate that NGO's 
are considering withdrawing from the country just as the 
specter of famine once again rises.
    To the best of my knowledge, no evaluation of the impact of 
these projects has been conducted on either a technical or 
political level.
    Anecdotal reports suggest that soldiers assigned tasks for 
which they have little experience in environments about which 
they cannot be expected to learn much in brief assignments are 
sometimes being ripped off by local contractors, have drilled 
wells and constructed schools and clinics of unproven benefit 
and sustainability, and seem unlikely to change how the U.S. 
Government is viewed by local populations.
    One justification given for these programs is that they are 
inexpensive, as AFRICOM has only a modest budget for them. But 
with the Pentagon intent on seeing all U.S. combatant 
commanders given access to the fund currently providing a 
billion dollars a year to commanders in Afghanistan and Iraq 
for development and humanitarian activities, these programs may 
not remain modest for long.
    The Sixth Fleet has its own agenda for Africa, and it is 
not clear to me how Partnership Station Africa relates or will 
relate to AFRICOM. Maritime security training for West and 
Central African navies, coast guards and other forces may have 
some enduring benefit.
    Those invited aboard to receive medical treatment will be 
grateful, and those listening to band concerts will be 
entertained, but these activities and the transport of 
commodities for cooperating NGO's are not serious development 
interventions likely to be sustained. One wonders why the Navy 
could not instead be performing a service consistent with its 
core mission by escorting food shipments through the pirates 
swarming off the coast of Somalia.
    As you have noted, Mr. Chairman, Mr. Secretary Gates is 
stating with increasing frequency a position similar to that 
which has been adopted by InterAction's Board, after issuance 
of DOD Director 3000.05 and National Security Presidential 
Directive 44.
    In our Board's word, ``The lack of capacity within the U.S. 
Government to undertake non-combat stabilization operations 
should be cured by providing civilian departments with the 
required additional mandates and resources.''
    Thank you for attention. I look forward to participating 
with other panel members in hearing your comments and in 
responding to your questions.
    [The prepared statement of Mr. Bishop follows:]
    [GRAPHIC] [TIFF OMITTED] 51637.004
    
    [GRAPHIC] [TIFF OMITTED] 51637.005
    
    [GRAPHIC] [TIFF OMITTED] 51637.006
    
    [GRAPHIC] [TIFF OMITTED] 51637.007
    
    Mr. Tierney. Thank you, Ambassador. We appreciate your 
comments as well.
    Ms. Hicks.

                  STATEMENT OF KATHLEEN HICKS

    Ms. Hicks. Chairman Tierney, Congressman Shays, members of 
the subcommittee, thank you for inviting me to speak today.
    The Defense Department's creation of AFRICOM has raised 
interest among many national security stakeholders: the U.S. 
defense community, development experts, the diplomatic corps, 
Africanists and African leaders, Europeans and even the 
Chinese.
    My particular perspective on AFRICOM is shaped by three 
experiences: First, as a one-time overseer of so-called 
building partnership capacity issues in the 2005 Quadrennial 
Defense Review and a contributor, while in the Department of 
Defense, to the AFRICOM text of the 2006 Unified Command Plan; 
second, as a co-director along with my colleague and fellow 
witness, Steve Morrison, of the CSIS Task Force on 
Nontraditional Security Assistance which assessed AFRICOM as a 
microcosm of a broader trend toward greater military 
involvement in humanitarian assistance and capacity-building; 
and third and finally, as a contributor to the CSIS Beyond 
Goldwater-Nichols Project and the Project on National Security 
Reform, both of which promote the evolution of national 
security structures to meet 21st century security needs.
    Last week, Chairman Tierney posed a series of oversight 
questions for this subcommittee, and I will attempt to provide 
my brief thoughts on three of these questions and then, of 
course, stand ready for your questions. I wish to underscore 
that the following views are my own and do not represent 
institutional positions of either CSIS or the Project on 
National Security Reform.
    First of these questions, what is the strategic vision 
driving the creation of AFRICOM and how has it evolved?
    I believe the Department of Defense urged President Bush to 
create AFRICOM out of a genuine concern that the military was 
ill prepared for managing security-related issues on the 
continent. Few would argue with the fact that U.S. security 
interests in Africa have long suffered from the continent's 
subdivision among three commands, all of which struggled to 
balance their piecemeal African engagement with other 
geographic regions in their areas of responsibility.
    Having been present for some of these deliberations, I can 
state with certainty that the Defense Department was not 
seeking to usurp control of U.S. foreign policy in Africa from 
the State Department or the White House, but the best of 
intentions are not always realized.
    I would also assert that the Department's coincident desire 
for more holistic interagency approaches to security, well 
documented in the 2006 Report of the Quadrennial Defense Review 
and subsequent Building Partnership Capacity Roadmap, reflected 
a genuine concern from the military that hard power alone is 
insufficient for managing potential challenges.
    Equally clear, however, is that the Defense Department 
significantly mismanaged AFRICOM's creation. It is my belief 
that DOD's can-do operational culture blinded it to the need to 
slow down and consult with interagency colleagues, particularly 
in the State Department and regional specialists within the 
National Security Council, and African leaders abroad in order 
to shape the Command's formation from the outset.
    As a result, Defense has largely been reactive in evolving 
a mission for AFRICOM, focusing today on the seemingly 
unassailable goal of delivering traditional defense assistance 
better and more efficiently to Africa than its predecessors.
    I believe this more limited vision is the correct one for 
AFRICOM in the near term regardless of the circuitous path the 
Defense Department took to arrive at it. The Command must lay a 
foundation of trust and confidence in both the rest of the U.S. 
Government and abroad, especially in Africa, before it can 
presume to expand its mission into nontraditional domains. It 
must crawl before it walks and walk before it runs.
    Second, what are the current and future missions planned 
for AFRICOM and what type of soft power mandate does it have?
    The U.S. military has a long history of supporting civilian 
agencies in their delivery of humanitarian and security 
assistance. As our Task Force on Nontraditional Security 
Assistance pointed out, however, its role in these areas has 
expanded dramatically since September 2001. The original 
Department of Defense view that AFRICOM could serve as an 
integrated delivery mechanism for security assistance reflects 
this more general growth in the Department's soft power 
resources and authorities.
    Like other combatant commands, AFRICOM could take advantage 
of the proposed expansion of the Commander's Emergency Response 
Program funds that are intended to be extended beyond Iraq and 
Afghanistan, if the Department of Defense's legislation is 
passed, as well as the extensions of Sections 1206 and 1207 of 
the 2006 National Defense Authorization Act which allows DOD to 
expend funds for counter-terrorism training.
    Further, to the extent AFRICOM is not the model for a whole 
of government approach, what is the right model? And I want to 
conclude with this final thought.
    It is impossible to separate DOD's growth in undertaking 
soft power missions from the absence of adequate funds and 
flexible powers for civilian agencies to do the same. Herein 
lies the dilemma for architects of future security.
    The Defense Department is uniquely able to garner requisite 
resources and authorities needed to tackle many of the problems 
we are likely to face, yet the responsibility and expertise for 
many of these missions lie in civilian agencies. Moreover, the 
continued growth of military capability in these areas is self-
reinforcing, accelerating the downward spiral of civilian 
capacity in favor of more expedient military solutions.
    By allowing and even enabling the disparity in our 
instruments of national power, this Nation is jeopardizing its 
long-term security posture. Challenges such as disease, 
terrorism, nuclear proliferation and state failure require the 
coordination of multiple U.S. Government departments and 
agencies, not to mention non-governmental organizations, the 
private sector, allies and partners abroad and even states and 
localities.
    A so-called model American approach would not place these 
instruments under the auspices of a military organization as 
AFRICOM's detractors might fear. Rather, the White House must 
exert civilian control to integrate defense concerns into a 
broader foreign and security policy framework.
    Some options for achieving this unity of effort at the 
regional level might include: The creation of standing regional 
security councils composed of senior representatives from all 
of the national security departments and agencies that could 
coordinate U.S. policy execution on a day to day basis and seek 
approaches to shape the regional environment in favorable ways, 
as discussed in the Beyond Goldwater-Nichols Phase 2 Report.
    A second option is the transition of Defense Department 
combatant commands into unified U.S. Government political- 
military organizations operating under civilian leadership 
while retaining operational chain of command from a commander 
in the field to the Secretary of Defense and the President.
    And, third, a third possibility is the creation of regional 
super Ambassadors with clear authority to integrate all U.S. 
Government activities in a region, coordinating closely with 
the Secretary of Defense for the operational employment of 
military personnel.
    Each of these potential solutions and I am sure many others 
merit further investigation.
    Mr. Chairman and members of the subcommittee, for those of 
us contemplating interagency national security reform, 
AFRICOM's conceptualization and launch are cautionary tales. 
Nevertheless, AFRICOM can and will play an important and 
positive role in improving delivery of military and non- 
military assistance in Africa.
    The Command is attempting to recalibrate its role after 
wisely tempering initial enthusiasm for a broad and currently 
unsupportable mandate. Given its staffing difficulties, it will 
need time to absorb EUCOM and PACOM missions and to gain its 
proverbial sea legs for security cooperation activities. For 
crisis response, I fear the maturation process may be even 
longer.
    I thank you for inviting me to share these perspectives, 
and I look forward to your questions.
    [The prepared statement of Ms. Hicks follows:]
    [GRAPHIC] [TIFF OMITTED] 51637.008
    
    [GRAPHIC] [TIFF OMITTED] 51637.009
    
    [GRAPHIC] [TIFF OMITTED] 51637.010
    
    [GRAPHIC] [TIFF OMITTED] 51637.011
    
    Mr. Tierney. Thank you very much.
    Mr. Malan.

                    STATEMENT OF MARK MALAN

    Mr. Malan. Mr. Chairman, members of the subcommittee, thank 
you for convening this hearing and for inviting me to testify 
on an issue that may well have profound consequences for the 
future of my motherland, the continent of Africa.
    I want to state up front that I truly believe that AFRICOM 
is a step in the right direction because it does hold a promise 
of making U.S. security policy toward Africa more coherent and 
to focus more sharply on building partner capacity for the 
maintenance of peace and security. However, I think that 
AFRICOM stepped off on the wrong foot in terms of its public 
diplomacy and remains at risk of staying off balance in its 
actual program delivery in Africa.
    In her testimony before the subcommittee on July 16th, Ms. 
Whelan sought to debunk three myths about AFRICOM. I won't dig 
these up, but I do want to suggest that AFRICOM has, in itself, 
become something of a mythical construct.
    It does not have the appropriate policy framework, the 
depth and balance of professional expertise or the requisite 
funding mechanisms to implement General Ward's concept of 
active security with a balanced team that is focused on long- 
term African capacity-building across the entire security 
sector.
    As matters stand, AFRICOM's capacity-building mission will 
be pursued through a nonexistent interagency team and a number 
of disparate programs funded through the Department of State 
and delivered by commercial contract.
    Information on these kinds of contracts can be found by 
clicking on the URL for Federal Business Opportunities where a 
visit to the site is welcomed: ``FBO.gov, the Government's one-
stop virtual marketplace. Through this single point of entry, 
vendors and Government buyers are invited to post, search, 
monitor and retrieve opportunities solicited by the entire 
Federal contracting community.''
    One of these opportunities is a State Department search for 
suitable private contractors to implement a significant chunk 
of what AFRICOM promises to do under the banner of the Bureau 
of African Affairs' Africa Peacekeeping Program, so- called 
AFRICAP. The current AFRICAP contracts were awarded to PAE and 
DynCorp International in fiscal year 2003, each one being worth 
about $500 million. The total combined ceiling amounts of all 
contracts awarded under the current competition may well exceed 
one billion dollars over the next 5-year period.
    The Department of State has also posted a request for 
information from companies interested in competing for 
contracts to continue with the implementation of a program 
described by Ms. Whelan in her testimony as ``a mainstay of the 
U.S. effort to build peace support operations capacity in 
Africa.''
    I refer, of course, to the African Contingency Operations 
Training and Assistance or ACOTA Program. Over the past 5 
years, State-funded ACOTA contractors have trained nearly 
40,000 African peacekeepers. The number really looks 
impressive, but there is still a massive shortfall of 
peacekeepers for the missions in Darfur and Somalia.
    The GAO has found that DOS lacks the capacity to assist the 
quality and effectiveness of ACOTA's training, equipping and 
capacity-building programs. For example, State spent $12 
million on training some 2,384 Africans as peacekeeping 
instructors, but it cannot determine whether or not these 
instructors have subsequently conducted any training at all. In 
my experience, African military institutions lack the capacity 
to do this without substantial donor assistance.
    Moreover, the program management team that State set up to 
oversee contractors providing training is comprised of nine 
contractor employees and only one Federal employee. It is a 
case of contractors overseeing contractors who are, by 
definition, motivated more by the cash-work nexus than 
professional concern for African security.
    AFRICOM also brings into focus the operational challenges 
to implementing the administration's broader whole of 
government approach to its transformational diplomacy agenda. 
The broader debate on those issues result in the word, 
interagency, being elevated from its status as an adverb or an 
adjective, as in interagency cooperation or interagency input--
to a noun, as in the interagency.
    Few would argue against the need for enhanced communication 
and cooperation amongst government agencies and between them 
and the military or against the joined-up approach to achieving 
foreign policy objectives. But the DOD is so strong in human 
and material resources and in thinking power as well as fire 
power that its civilian agency counterparts pale into 
insignificance.
    The interagency in the context of U.S. AFRICOM is, in fact, 
the Department of Defense with token representation from non-
DOD agencies. Although AFRICOM boasts that the State Department 
Deputy to the Commander for Civil-Military Affairs, the DCMA, 
is responsible for the planning and oversight of the majority 
of AFRICOM's security assistance work, the DCMA's salary is 
paid by the DOD, not the Department of State, and we know that 
she or he who pays the piper generally calls the tune.
    While the DCMA told this subcommittee on July 16th, that 
the level of participation in U.S. AFRICOM from across the U.S. 
Government has been excellent, Mr. John Pendleton testified 
that DOD has had significant difficulties integrating 
interagency personnel in the Command and that DOD continues to 
lower its estimate of the ultimate level of interagency 
participation.
    Mr. Pendleton reported that DOD is making substantive 
progress in filling the 1,304 approved positions for AFRICOM 
headquarters, but the current plan is to have only 13 non-DOD 
positions filled. This represents the DOD to interagency ratio 
of 100 to 1 and indicates that the interagency collaboration 
originally envisaged remains notional at best.
    The reason, of course, is that the human resources of 
Department of State and AID have been systematically degraded 
to the point where there are not enough federally employed 
professionals to go around, and Africa is simply not a high 
foreign policy priority.
    In conclusion, Mr. Chairman, I want to say that my views 
may sound negative, but I do really believe that Africa needs 
AFRICOM, not a mythical AFRICOM, but a unified geographic 
Command that can make a clear and credible commitment to 
providing long-term sustainable support to African partner 
countries and organizations.
    It needs an AFRICOM that has the knowledge and expertise to 
critically examine existing security assistance programs, that 
can properly evaluate and upgrade these to ensure their 
relevance, coherence and effectiveness in building sustainable 
African security capabilities.
    But AFRICOM lacks the appropriate human resources to do 
these things, and this is a weakness that cannot be addressed 
without a fundamental strengthening of departmental capacity at 
the center. It will not be overcome by a fixation with the 
interagency while the real need is for strengthening the human 
and financial resources of the agency. I refer, of course, to 
USAID in particular as well as the Africa Bureau in the 
Department of State.
    Refugees International is therefore calling upon the next 
President and Congress to ensure that the further development 
of AFRICOM is accompanied by a significant strengthening of 
State's Africa Bureau and of USAID personnel dedicated to 
Africa.
    In the interim, there is a clear need for continued close 
oversight of AFRICOM plans and activities by this subcommittee 
and others to ensure that the Command does not treat its 
responsibilities in Africa as just another Federal Business 
Opportunity.
    Mr. Chairman, thank you for listening. I look forward to 
your comments and questions.
    [The prepared statement of Mr. Malan follows:]
    [GRAPHIC] [TIFF OMITTED] 51637.012
    
    [GRAPHIC] [TIFF OMITTED] 51637.013
    
    [GRAPHIC] [TIFF OMITTED] 51637.014
    
    [GRAPHIC] [TIFF OMITTED] 51637.015
    
    [GRAPHIC] [TIFF OMITTED] 51637.016
    
    [GRAPHIC] [TIFF OMITTED] 51637.017
    
    Mr. Tierney. Thank you, Mr. Malan.
    And, Dr. Morrison.

                STATEMENT OF J. STEPHEN MORRISON

    Mr. Morrison. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here today and thank you for using your role 
here at the committee to put a focus on this.
    I think it is very important that this effort be carried 
forward in taking the broad view of where AFRICOM is and where 
it needs to move forward. It is going to be the top issue on 
the desk of the policy leaders in the next administration on 
Africa policy. It is an uncertain question, and it is very 
important that there be broad thinking on this.
    U.S. engagement in Africa is way up. In the Bush years, 
commitments have increased. Financial commitments have 
increased by a factor of three to four, depending on how you 
estimate.
    There have been White House signature initiatives, PEPFAR 
and MCC, which have brought major new gains in U.S. engagement. 
AFRICOM is, I would argue, the third major signature 
initiative, but it is coming late, and it is one that has more 
controversy and more ambiguous outcomes associated with it.
    U.S. interests on the continent are way, and these 
signature initiatives reflect that: our interests in terms of 
counter-terrorism, our continued engagement on major conflicts 
and emerging crises, our interests with respect to global 
public health concentrated in Africa, our interests in terms of 
energy dependence and global markets.
    We need AFRICOM. It is not long back into the mid-1990's 
when the U.S. disengaged rather dramatically in terms of 
security engagement in Africa. That carried a huge penalty for 
us in terms of our image and our effectiveness, and I think it 
is a welcome change that this administration has come forward 
and proposed and moved ahead with plans for a unified African 
Command.
    It is not adequately funded, and it has many problems 
associated with it that I will speak to in a moment, but I 
think this is a welcome change. The question now is how to make 
it legitimate, effective, accepted, accepted here and in Africa 
and elsewhere and make sure that it is adequately funded and is 
successful.
    I think much of the debate that we have seen in the last 
year is a bit overheated and a bit exaggerated. The Department 
of Defense programs in Africa are a mere $250 to $300 million a 
year. That compares against the annual commitments globally on 
HIV/AIDS under PEPFAR this year which are running at $6 
billion, of which 65 to 70 percent are expended in Africa, just 
as one point of comparison.
    I think it is overheated for a number of reasons. One is 
that our civilian capacities vis-a-vis Africa, particularly on 
policy leadership, are acutely weak. They are exceptionally 
weak. I agree with what Mark was saying a moment ago and 
Ambassador Bishop as far as the need to make this a priority.
    The legacy of Iraq and Afghanistan and DOD's expansion has 
created special sensitivities and fears which need to be 
addressed. I think the Department of Defense in moving AFRICOM 
forward was clumsy. It was also exuberant in ways that raised 
fears inadvertently.
    The fact that there has not been an effective interagency 
process, quite the reverse, a breakdown, has had a huge 
aggravating impact.
    And the reality that there are active, ongoing counter- 
terrorism operations in West and East Africa creates a context 
in which people have to ask hard questions around how this 
capacity will be used kinetically in the future.
    My advice is that, looking forward, we admit the reality 
that this is an important new dimension of U.S. foreign 
engagement in Africa. It is important to be successful. Let's 
focus upon what the real choices are in order to improve its 
performance.
    I have argued that we need to, first of all, fix the 
interagency. It is not impossible. It is not rocket science. It 
has been done in other parts of the world. There is no reason 
why it cannot be done effectively here, to reaffirm the primacy 
of civilian policy leadership in Africa.
    Second is we have to fix the Africa Bureau at the State 
Department and make sure that its leadership here in Washington 
and in our embassies in this next administration is much 
stronger and much higher.
    In terms of performance, let's focus upon the things that 
AFRICOM can and should do well in building capacities on the 
continent, and that has to do with professionalizing African 
militaries, building African peacekeeping capacity and linking 
it to the U.N. operations and A.U. operations. That means 
contributing significantly in those major post-conflict 
situations where U.S. engagement has been highest. I would say 
the Liberia instance and southern Sudan are the most dramatic 
and important.
    Maritime security, there are huge opportunities there to 
reverse the trend of violent and lethal piracy and to reclaim 
control over fisheries that are being pilfered and plundered 
today, particularly in West Africa and East Africa, at huge 
loss of developmental gains in protein for people who live on 
those littoral states.
    Global public health is terribly important in Africa. The 
military has a strong record already through its prevention 
programs on HIV/AIDS, through its labs that have been in 
existence for several decades. There is much more that can be 
done. They have strong leadership in the command surgeon. There 
is lots of opportunity there.
    The global food crisis is hitting Africa with particular 
force. There is more that can be done in terms of civil- 
military dialogs on how to best manage the strains that we are 
seeing particularly in urban environments.
    My closing comments are on this counter-terrorism threat, 
we are approaching in 2 weeks time the 10th anniversary of the 
bombings of our embassies in Dar es Salaam and Nairobi. It is a 
good moment to revisit the issue around what the true threats 
are. There are threats there, but we need to keep a realistic 
and very targeted focus on what those threats are in both West 
and East Africa and not be expansive or exaggerated in how we 
are looking at them.
    We have to demonstrate AFRICOM's value to the emerging 
crises that will continue to beset the continent.
    There is no effective contingency planning underway in the 
U.S. Government today for a full meltdown option in Zimbabwe.
    We have not seen any strategy for dealing with the widening 
Niger Delta crisis which involves extensive bunkering and 
theft, grand theft of oil at a tune of somewhere between 50 and 
200,000 barrels per day depending on the cycle. This has huge 
implications in terms of weapons trafficking and money 
laundering.
    We do not have any tie-in effectively through the U.N. to 
try to stabilize the Kivus in the DRC.
    The last point is China. We need to engage China. 
Currently, there is a statutory constraint on that. There has 
been some de facto cooperation between the United States and 
Chinese in Liberia and in Darfur which is proving to be very 
promising.
    I would argue that Congress should take a step to loosen 
those constraints and to set incentives for the AFRICOM and 
related agencies to enter a dialog with the Chinese at this 
moment when they are making much bigger commitments in support 
of African peacekeeping.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Morrison follows:]
    [GRAPHIC] [TIFF OMITTED] 51637.018
    
    [GRAPHIC] [TIFF OMITTED] 51637.019
    
    [GRAPHIC] [TIFF OMITTED] 51637.020
    
    [GRAPHIC] [TIFF OMITTED] 51637.021
    
    [GRAPHIC] [TIFF OMITTED] 51637.022
    
    Mr. Tierney. Thank you, Doctor, and thank all of you. I 
think you have really helped frame some of these issues.
    We are going to begin our questioning period, and I am 
going to start, but I want to make a statement. I invite both 
my colleagues and any member of the panel to interrupt me at 
any time as I sort of try to put a frame around this before we 
get too far into it.
    It seems to me that we are looking at our foreign policy 
and if we listen to Secretary Gates, who I think has it right. 
Others may not agree, but I think he has it right, that a whole 
of government approach in our foreign policy written large or 
narrowed down to Africa would be looking at what those 
countries perceive as their issues and their problems.
    In Africa, obviously, it is poverty, disease, other broader 
health issues, lack of education, water, sewer, electricity, 
roads, bridges, air and seaports, electrical grid and all of 
those things that fall under development, and intelligence and 
security. There may be other things that I have missed.
    But the mission goal of AFRICOM, if you take it in line 
with other command centers, that was basically around security. 
How do we help the African nations get security and work 
cooperatively, regionally, in security apparatus or whatever?
    They, however, have taken on the whole of government 
responsibility of addressing all of the issues I just 
mentioned, security being one, but they are perceived as having 
as their focus, security, of being the military embodied by 
most people. In a sense, when I listened to the testimony last 
week, they seemed to be doing just that. That is their forte.
    So we have confused, I think, the sort of mission, the 
overall mission of the whole of government approach to our 
foreign policy in thinking of AFRICOM doing all that instead of 
saying, we have that policy. Perhaps the Department of State 
should be running that policy. A component of it would be a 
cooperation with AFRICOM as it relates to security matters.
    And then, I think we would have a better picture of what we 
are trying to do, project a better picture out there to other 
people as to what the United States is trying to do.
    The problem then that I see we have with that is resources. 
The military and, Ms. Hicks, I think you said it sort of 
cleverly in yours when you said the Department of Defense is 
uniquely able to garner requisite resources and authorities 
needed.
    Basically, yes, they get a lot of dough, and they get it 
because they are very good at getting it and because Congress, 
unfortunately, thinks that is the repository for all of our 
foreign policy. The White House has fallen in line with that, 
and we just keep loading dollars into that.
    Whether it is breast cancer, some educational programs and 
everything else, you put it in the Defense budget because you 
know they will get it. We have a $550 billion Defense budget. 
As Mr. Malan's report says, USAID money has gone down. I can 
report to you intelligence money has been usurped by the 
Defense Intelligence Agency and others, as well as their 
activities, and you go right down the line. So now the question 
is how do we realign that?
    How do we somehow get our budgetary process here to put the 
resources where they ought to be so that the military has what 
it needs, but some of that is garnered lately from other 
agencies is taken back over, put in State, put in USAID to 
buildup their human capacity, so they can go about doing all of 
this development, education and other work? So that is one 
problem.
    The other problem Mr. Malan brings up is something we are 
going to have to explore more deeply. Even within giving State 
the responsibility, they have now contracted out way too much, 
and they have sort of diminished their own human capacity to 
carry out these activities.
    So it really isn't the face of the U.S. Government 
interacting with other nations. It is somebody we have hired, 
whether it is DynCorp or Lockheed Martin or somebody else. Is 
that the face we want to present? Do they always represent the 
United States in the way that we want to be represented?
    We have even retained so few people, we have a difficult 
time having U.S. employees managing those contracts or 
overseeing them.
    So there is a layered problem here. I just want to know if 
I got anything in there totally wrong or are we pretty much 
seeing this thing the way it ought to be seen? Anybody can just 
jump in.
    Ambassador.
    Mr. Bishop. If I may, Mr. Chairman, just add the suggestion 
that you need to focus also, as some of my colleagues have, on 
the National Security Council. I mean when I had the privilege 
of serving in the U.S. Government, it was fairly clear that the 
National Security Council was the final arbiter of U.S. foreign 
policy subject, of course, to the President and Members of the 
Cabinet.
    That role has eroded in the last two administrations, and 
there is a sense of drift, and I think that is one reason why 
we see AFRICOM asserting a role in coordinating a whole of 
government approach.
    Coordination of a whole of government approach should be 
the responsibility of the National Security Council, I believe.
    Mr. Tierney. That is a good point. That council was 
particularly absent in the beginnings of the Afghanistan 
situation and the Iraq concept as well. So there was a great 
lack of capacity there.
    Doctor, do you want to say something?
    Mr. Morrison. First, you asked a couple of questions. For 
there to be an effective whole of government approach with 
respect to Africa, it does require a reconstituted interagency 
that today isn't operating. That is a problem that is 
Government-wide for us, but it is one that is very pressing 
here.
    And, I don't think we should blame the leadership of 
AFRICOM for that fact. This is a reality that they have 
inherited, and they have to struggle within. It is one, more 
broadly, that Congress has. That is my first point.
    Second point is the imbalance in resources that people 
comment on, the reality is in Africa the imbalance runs the 
opposite direction. The civilian flows, the resource flows that 
have gone into U.S. civilian agencies and implementing partners 
for the purposes of development and health and the MCC programs 
have risen at a staggering pace.
    Mr. Tierney. But Mr. Malan raises the question of how much 
of it is just being tossed out the window to contractors who 
may or may not be effectively carrying out some of those 
responsibilities?
    Mr. Morrison. Well, I think if you take the PEPFAR 
programs, I would take issue with the notion that there has 
been diversion and waste on a prodigious scale.
    I think quite the opposite. I think this is a program that 
will be regarded as a signal achievement of this administration 
and of a bipartisan consensus in Congress that has supported it 
and the management of it.
    It has involved a transfer up through September, end of 
this fiscal year, of $19 billion in a 5-year period with 65 to 
70 percent going to Africa, and there hasn't been a single 
major scandal surrounding that program. So, if we put that in 
perspective as against a $250 to $300 million a year DOD 
program, I think we have to keep the context there.
    The other point is I think that AFRICOM has made some 
progress in attempting to narrow and define, better define its 
mission to be humanitarian operations, capacity-building and 
crisis response which will require hard kinetic response.
    Mr. Tierney. Let me interrupt you for just a second. But 
why is the military talking about humanitarian activities? I 
mean are they the proper lead agency for that aspect?
    Mr. Morrison. I think in certain respects. They have 
certain special capacities and authorities which we have seen 
in the tsunami response, which we have seen in the Pakistan 
crisis.
    Mr. Tierney. I agree with that. But I mean, generally 
speaking, don't we put humanitarian efforts that are non- 
emergency response kind of things somewhere other than in the 
military where they play supporting role and don't play the 
lead role?
    Mr. Morrison. I think when you have disasters that are 
either human created through war and conflict or natural 
disasters, the military has exceptional capacities and will 
continue to be called into those.
    Mr. Tierney. They play a larger role, right.
    Mr. Morrison. I think they have some special capacities on 
public health which can very much complement and help build out 
the achievements that have been made overwhelmingly on the 
civilian side, and they will not usurp those. They will add new 
capacities there.
    I think I agree with Jim, with Ambassador Bishop, that we 
have to be careful in drawing lines and not having an ambiguous 
line where the developmental mandate, long-term, really needs 
to rest with civilian agencies. I think that is a point that is 
a sensitive point, and it is one that AFRICOM has to come to 
terms with.
    Mr. Tierney. I don't want to cut you short, but I want go 
to Ms. Hicks.
    One of the recommendations you had about how we realign 
these things really, to me, looked like going back to where we 
have always been in terms of having the Ambassadors run the 
show and basically call the military in to those things that 
they do well, even if they are an emergency, some humanitarian 
or whatever, and coordinating the rest of the efforts.
    It seems to me that is a good idea, and that then takes 
AFRICOM out of the problem that we have been hearing people 
complain about and puts them to doing exactly what their 
mission is and what people expect out of them and being part of 
a team on that basis.
    You mentioned, however, having sort of a super Ambassador 
in certain regions which, to me, I think is take the current 
system and just add on one level of administration or something 
of that basis. Will you talk a little bit about what you see as 
the benefits of that as opposed to just leaving the system 
where it is now and building up the human capacity and making 
the coordination work better?
    Ms. Hicks. I think that one of the biggest disconnects 
between the Department of Defense and the Department of State, 
if you talk to folks from those two agencies, is the prism with 
which they look at issues overseas. DOD does take, at the 
operational level, take a regional approach and, generally 
speaking, the State Department is country by country basis, 
bilaterally based.
    There are very good reasons in both cases why they are set 
up this way. It is not that one is inherently better than the 
other.
    But when it comes to the role of the combatant commander, 
because that is the forefront, if you will, of the regional 
presence for the United States, what you have seen over a great 
deal of time, and AFRICOM is just one example. EUCOM is 
probably the most obvious example.
    You have seen a real growth in the political military power 
of that combatant commander because they have, first of all, 
tremendous resources. They are four stars. They are in the 
region. They meet regularly with foreign officials, both 
military and non-military.
    That is a very powerful mechanism for the U.S. Government 
and so, as with many things, we lean on it. We use that, and 
the combatant commander becomes ever more powerful as an 
instrument of U.S. foreign policy, not just as an instrument of 
U.S. national security or even defense policy.
    So the super Ambassador concept would essentially be that 
if one were to follow through on that, the concept would be 
that regional presence is powerful, that we do think there 
ought to be some kind of U.S. fore presence that knits together 
the various country by country bilateral pieces into a whole, 
but that ought to be a State Department official or a civilian 
official more generally reporting to the President.
    Mr. Tierney. Thank you.
    Ms. Foxx, you are recognized for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman. I appreciate that.
    I would like to make a brief statement and then ask a 
question, and I apologize that I have had to be in and out of 
this hearing the other day and today.
    So I want to say what I have observed is that we focused 
very heavily on the efforts of DOD in these discussions, but we 
have not looked very much at the role the civilian agencies 
have played in the discussion in standing up AFRICOM and the 
role they are playing now.
    We have heard State Department and USAID were reluctant 
from the outset. But, as I look around the room, I see senior 
representatives from EUCOM, AFRICOM, GAO, CRS, but I don't see 
any familiar faces from USAID or the State Department.
    Once, I had a very, very wise boss who made a comment to me 
when I criticized him about something. I said, you know I don't 
think you ought to be doing something this.
    He said, well, I am doing it this way because it is the 
only way I know how to do it. If you will offer me an 
alternative, then I can try the alternative.
    I have tried to think about that and share that with folks 
working with me.
    So, from your written statements, it sounds like that you 
all agree in principle that a unified effort on the African 
continent would be beneficial. Do you think--and each one of 
you can answer this--that the State Department and USAID should 
get more engaged in AFRICOM? Should they be demanding more 
personnel slots, more of a role at the planning and 
implementation table?
    From the limited number of non-DOD civilian slots at 
AFRICOM, does this seem to be the case? I would like to get a 
response from each one of you.
    It seems that we are not getting a push from those 
agencies, a lot of criticism, but not much effort at telling us 
what could make it better and how they could make it better.
    Mr. Bishop. Thank you, Congresswoman Foxx.
    I think the problem on the basis of the discussions I have 
had with colleagues at AID and the State Department is that 
they just don't have the resources to provide. When I entered 
the Government----
    Ms. Foxx. Excuse me. But are they asking for the resources? 
Are they calling that to people's attention?
    Mr. Bishop. My understanding is that the current 
appropriation request from the State Department would include 
an augmentation of some thousand in the numbers in the State 
Department and in augmentation of 300 initially for USAID with 
that to be replicated in each of the next several years.
    When I entered the U.S. Government in 1960, there were 
probably 10,000 people who were working for USAID. They were a 
recognized leader in the field of international development.
    They are down to 1,000 professionals. They have been 
eviscerated. They don't have the personnel to assign. I think 
they would be happy to do it if they had it. They have reached 
out to retired officers and brought them back as contractors 
and assigned them to some of the other regional commands.
    Thank you.
    Ms. Foxx. Remember there is a time limit. So, if you would, 
please, try to get everybody to get an answer. Thank you.
    Ms. Hicks. Very quickly, I think it is very difficult to 
separate the will and capability issues on the civilian side. I 
do think both are at play. There is definitely a capacity 
problem, a huge capacity problem to be fixed. There are also 
barriers to entry relating to personnel policies that make it 
difficult to get people over to AFRICOM and other interagency 
fora.
    But there is clearly a will issue. When Steve and I 
traveled out to AFRICOM last year, that was clear to us from 
the very few State and AID folks that we spoke to. The agencies 
have very mixed feelings about AFRICOM.
    Again, that is a problem of leadership, I think, out of the 
White House, out of the NSC. This is something signed off on by 
the President. It is an agreed policy of the U.S. Government, 
and yet you can't get individuals to support it. That is a 
leadership problem, fundamentally.
    Mr. Malan. My testimony focused on a particular aspect of 
AFRICOM's mission, and that has to do with support for the 
African security sector and African security architecture.
    We very easily get sidetracked in these discussions on 
issues of DOD and development, issues of pitfall. But I was 
focused not on DOD doing a bad job in terms of support to 
African security sector capacity-building, but on the various 
programs funded by the PKO account and other accounts under 
State Department that are not doing a good job.
    The dilemma is that this is an essential part of what 
General Ward has described as active security. He defines this 
as persistent and sustained level of effort focused on security 
assistance programs that prevent conflict in order to foster 
dialog and development, in other words, a security first 
approach to development.
    That is the weak part of AFRICOM, but that is the part that 
State Department is responsible for. It is a chicken and egg 
situation. State does not have the human resources capacity to 
deliver this through their re-employed professionals.
    The Brits had an answer to this in standing up for Africa, 
an interagency mechanism called then the Africa Conflict 
Prevention Pool. It is called the Conflict Prevention Pool, 
which brought together the Foreign Commonwealth Office, DFID 
and the U.K. Department of Defense.
    Why could they do this? Because DFID's budget is much 
closer to that of the U.K. Department of Defense.
    We get, again, to the imbalance. It is structural at the 
center. This makes it very difficult for AFRICOM to put 
together this kind of balanced interagency team.
    Thank you.
    Mr. Morrison. Thank you very much.
    I would add to what Kathleen was saying, that State and AID 
are not participating in the levels that they could and should 
because there is no consensus around the definition of the role 
and the overall consensus around the missions and roles in 
respect of chief of mission authority. That is the big block, 
and there needs to be a memo of understanding struck between 
the leadership of State and DOD and AFRICOM in order to resolve 
this.
    I don't think money is an issue. I mean the AFRICOM has 
offered to cover the costs. There is a limited number of bodies 
available. There are career consequences for choosing to go a 
nontraditional path.
    But I think when you talk to people within State and AID 
who have operated in unusual circumstances, there is high 
interest in joining. I think it would be a great shame if the 
opportunity to begin exploring innovative nontraditional ways 
of mixing our military with our civilian personnel, if that 
opportunity were sacrificed to this particular conflict.
    In SOUTHCOM, the case of Latin America, there has been a 
much quieter and much greater progress, I believe, in building 
innovations of this kind without this controversy hanging over 
it. It is possible.
    Two other quick points. AFRICOM started out on the wrong 
foot, calling for the establishment of a base on the continent 
and calling for the creation of regional hubs. This put people 
back on their heels in Africa and put our civilian agencies 
back on their heels, and they did see that as a threat of 
usurping authorities.
    The base issue has been removed. As I understand it, the 
regional hubs issue has been removed.
    What does that leave in terms of options for deploying 
these personnel that AFRICOM is beginning to put in place? 
Well, many of them will be operating out of Stuttgart or 
wherever if a base moves to the U.S. quarters somewhere.
    But many of them will be deployed into embassies, and they 
will become part of the embassy team, and they will de facto 
strengthen the authority and the capacity of the embassies. We 
shouldn't lose sight of that fact.
    We shouldn't lose sight of the fact that we had a base in 
Djibouti, 1,200 to 2,000 personnel since 2002, and it has been 
very active. It has not usurped the power of our Ambassadors in 
Nairobi or in Addis Ababa or Kampala. They have made the 
adjustments. The leadership of the Combined Joint Task Force- 
HOA in Djibouti have learned to live with and respect the chief 
of mission's authority within that region.
    That should tell us something about what is possible in the 
future for AFRICOM.
    Mr. Tierney. Thank you, Doctor.
    Thank you, Ms. Foxx.
    Ms. Foxx. Mr. Chairman, you have been very kind.
    Mr. Tierney. Yes, we have.
    Ms. Foxx. I appreciate that.
    Mr. Tierney. And I am sure you won't abuse that.
    Ms. Foxx. No. Well, if Dr. Morrison could submit an answer 
on what we can do to force State and USAID to come to a 
resolution, I would appreciate that. Thank you so much.
    Mr. Tierney. Doctor, are you willing?
    Mr. Morrison. I would be happy to do that.
    Mr. Tierney. There you go.
    Mr. Morrison. I apologize if I haven't adequately answered 
your question.
    Mr. Tierney. Thank you.
    Ms. McCollum, you are recognized.
    Ms. McCollum. Thank you, Mr. Chair, and thank you again for 
holding this hearing and for having a followup.
    I am going to put my thoughts in context before I ask a 
question. First off, the fact that we have three military 
commands that are kind of responsible for Africa begs the 
question we need one unified military command for a continent 
of this importance.
    The fact that the State Department and military areas don't 
share the same geographic map of responsibility for full 
communication about working on the continent, that is a 
problem. So I think those things do need to be resolved.
    State does have deputy Ambassadors trying to cover things 
regionally in Africa, but there is so much conflict and human 
crisis right now, that they are putting out fires in Sudan. 
They are putting out challenges in Kenya. We have the other 
challenges in the southern part of the continent.
    They are so busy with that, where is the focus on 
development, because you are always going go to the hot spot 
first before you start doing the deluxe or the buildup?
    I do appreciate what I have heard from the table, that we 
can't make lines so bright, so tight that they don't make sense 
because when it comes to public health, DOD being involved in 
professionally training the military and some of the points 
that you brought out, Doctor, are very important.
    When asked in and asked for help with peacekeeper training 
and that, we should be there.
    We know what the AIDS epidemic is doing to Africa. We know 
what the opportunities for testing, intervention and education 
with HIV and AIDS when you have officers to officers and men to 
men talking, incredibly important. So there are times where it 
is a huge complement, and in times of crisis it makes sense.
    But Secretary Gates said during the speech I just heard 
last week that the lines between the military roles and the 
roles of humanitarian and development agencies, they are 
ambiguous.
    But he clearly has said that he thinks that building 
schools and providing health care and digging wells are not the 
work best done by the military. In fact, he says it should be 
done by civilian agencies.
    So I would like to know kind of from your experience, and 
some of you have been on the ground and speaking to soldiers. 
By the way, who, in a report, Mr. Chair, the military, 84 
percent of officers say that strengthening non-military tools 
such as diplomacy and development efforts should be at least 
equal to strengthening military efforts. So they know how 
important the role of State in development is.
    Could you tell us what in your opinion is the most 
appropriate and best training, personnel in the U.S. Government 
should be doing on the ground, developing humanitarian work?
    In other words, who is the best for that? Is it the 
military?
    And, if it is not the military, is it because of this gap 
and this recognition that somebody has to fill the void, that 
they have gotten, to use the vacuum term, sucked into doing 
something that they really know is not their role, but they 
know what happens when that role is not filled?
    If that is the case, if they know that other people should 
be doing it, is Mr. Tierney's point about the money? Is it just 
because the military has been able to get more money easily 
from Congress? Is that why you see that happening?
    So if you could just talk about from your experience, and 
when you can give examples I think that is fabulous.
    Mr. Bishop. If I may, I think what we are witnessing is an 
overreaction to our sad experience in Afghanistan and in Iraq. 
The NSPD-44 and the DOD Directive 3000.05 basically said that 
because there is not an adequate surge capacity within the 
civilian branches of Government, the Defense Department 
henceforth will give the same priority to preparing for 
engaging in stabilization roles, including humanitarian 
assistance and development, as it does in preparing for combat.
    Most people join the military to be warriors, not to be aid 
workers that also salute when they are told what to do, and the 
institutions are saluting and doing what they are told to do 
but at the same time cognizant of the fact that they don't have 
the expertise.
    Development work is a profession. Humanitarian assistance 
is a profession, just like military service is a profession. 
They can pick up some of it, but they are never going to be 
able to do it as well as the true professionals.
    Ms. Hicks. I would also like to respond to that.
    I do think you put it perfectly. I think the authorities 
and the funding, the ease of the authorities and the funding in 
the current global war on terror framework in which we place 
most of our national security issues has really facilitated 
DOD's growth in these areas.
    I think also, and this is not the case in most parts of 
Africa, the semi or non-permissive environment also creates an 
inlet for DOD to have a larger role.
    And, again, I don't think they are looking to have a larger 
role. It is this can-do attitude. It is what we love about the 
American Military and what makes them so great. But they 
themselves would probably be the first to admit that they are 
not the best capable of doing things, but they are going to 
move into a vacuum rather than let the vacuum exist. It is just 
a completely different culture.
    Let me also say there are authorities for DOD to do 
humanitarian assistance and not just disaster relief. The 
problem is the framework within which they do it. They are not 
trained to think of long-term development goals. They are not 
even interested necessarily in long-term development goals.
    They are interested in near-term hearts and minds 
operations. So you dig a well to make people happy so that they 
are less likely to raise their children to shoot at you. They 
don't dig a well so that it can feed a population over a long 
period of time and to grow the economy of a country.
    So I do think the military will always have some role to 
play in humanitarian assistance. It just shouldn't be the 
largest role and, most importantly, it should be done within a 
framework of long-term development. They need to understand 
what the long-term development goals are. They need to 
coordinate what they are doing with USAID who is, by far, the 
best capable of creating those long-term goals and actually 
executing plans to meet them.
    Mr. Malan. If I may just share some perspectives of what 
the United Nations does in Africa.
    You alluded to the fact that conflict is so ubiquitous in 
the African continent, and this really does stall efforts of 
development. The United Nations calls it post-conflict 
peacebuilding. We are talking about a transition from a state 
of conflict toward a peace transition.
    I think the U.S. views or, rather the military, in 
development is shaped by hostile environment attempts at post- 
conflict reconstruction when there is still a shooting war and 
insurgency going on.
    The United Nations builds up a huge military force of 
sometimes dubious military competency, but it does put boots on 
the ground and stabilizes. But there is what they call 
integrated missions where the U.N. development program, U.N. 
department of political affairs, public information, they have 
an integrated mission headquarters.
    And the military generally stays in its lane. They do quick 
impact projects or QIPs. This is not the same as development. 
This is small money sometimes out of the regimental fund of the 
Indian brigade or the Pakistani brigade. I think that is a 
distinction we need to make.
    But in Africa, it is about conflict prevention and post- 
conflict reconstruction or peacebuilding. For that, one does 
need a balanced approach, and I think there are clues as to how 
to do it.
    I think both Ambassador Bishop and Steve Morrison mentioned 
the role of the United Nations in Africa, but there are also 
other major donor partners. I mentioned the British Africa 
Conflict Prevention Pool joining up DFID, the Foreign 
Commonwealth Office and DOD. There is a need for coordination 
at so many levels between the United Nations' peacebuilding 
efforts.
    The big gap, sorry, and I will end here. The big gap in all 
of those scheme of things is support to security sector 
professionalization which is active security as defined by 
General Ward. But AFRICOM, as it now stands, doesn't seem to 
have the ability to deliver more smartly and more effectively 
on this particular part of the mission.
    I talk about support to the professionalization of the 
military which DOD is not doing in the main beyond counter- 
terrorism training. It is being done by contractors.
    And I talk about the prison service, the criminal justice 
system in totality and support of building up police, that 
integrated approach within the framework of the African peace 
and security architecture.
    So I think there is just a lack of thinking and knowledge 
of this joined-up approach.
    It is not only stovepipes within the U.S. Government, but 
it is also bilateral versus multilateral. The French are in 
Africa in a big way. The Brits are, and we heard about the 
Chinese being there. I mean the amount of U.S. foreign 
assistance going to Africa is dwarfed by what the Chinese are 
pumping into certain countries, DR Congo, for example.
    So I really do think there are models that we can learn 
from and that it can be done.
    Thank you.
    Mr. Morrison. The military, AFRICOM is not going to fill 
the space of providing social services in Africa in terms of 
schools or agricultural development or education or provision 
of water. They may do some demonstration highlights here and 
there.
    But the bigger reality is that the U.S. Government on the 
civilian side dramatically scaled back its commitments on rural 
development, promotion of peasant agriculture in Africa. Total 
commitments this year in the midst of a global food crisis, 
total USG development assistance commitments globally on rural 
development are about $200 million, and that is very, very 
nominal against the demands and the needs.
    We have checked out of family planning in any serious 
level. Child survival has remained a very vulnerable set of 
programs.
    So I think the issue you are point to, Congresswoman, is 
that we need a much more robust and much more serious 
development strategy as part of our foreign policy and one that 
treats this issues adequately and not get tripped into thinking 
that this is something that AFRICOM aspires to take on. This is 
outside their lane or capacities.
    I agree with what Jim Bishop was saying about the scale- 
down of personnel, the scale-down of funding. You know we moved 
ourselves out of agriculture in the early 1980's and didn't 
come back, and we were not alone as donors. We are paying a 
huge price today when you look at the global food crisis and 
the inability of markets to function effectively in Africa.
    Thank you.
    Mr. Tierney. Thank you, Doctor.
    Mr. Shays, you are recognized.
    Mr. Shays. Thank you, Mr. Chairman. Sorry, I was on the 
House floor on two bills.
    Again, I think this is a very important hearing. I say I 
don't have any dog in the fight because I don't really have a 
strong sense of how I feel it is going other than to have a 
sense of what I would like to have happen, but I don't feel 
that real passion because I don't really know.
    This is what I do know. I do know the worst day in my life 
in Congress was when we were called to get a briefing from 
Warren Christopher and Les Aspin about Mogadishu where we lost 
18 people, 18 brave soldiers, some that were dragged through 
the streets. I literally went out of the room and started to 
cry.
    I felt like I had sent them there for one mission, and they 
were doing another mission. I felt just sick to my stomach.
    I remember both the Secretary of Defense and Secretary of 
State saying, well, what do you think we should do, and I was 
not in that kind of mood. I was in the mood for having our 
leaders tell us what they thought we should do and react to it.
    Dividing Africa into three parts and having it be part of 
three different so-called districts meant that it was going to 
be an afterthought for each. So it makes sense to me, and I am 
saying this because I want you to react. It makes sense to me 
that we would have a unified effort on the part of the 
Department of Defense, that we would finally treat Africa with, 
I think, the respect it deserves.
    It is a huge continent. It has people that have immense 
resources that continually fight over their own resources. You 
have tremendous corruption. You have lots of poverty. You have 
the seeds for just developing the worst types of people who 
want to bring the world into the Dark Ages.
    And so, I say, good for the United States, finally, that we 
are now treating Africa as a complete unit as it should be.
    What I started to describe to you, though, what I see is it 
is not all military. So I am struck by the fact that bad things 
will happen militarily if we don't deal with the personal needs 
of the governments and of its people.
    So one thing we could do is we could just say, OK, we are 
going to just have a DOD that focuses on DOD, and we are going 
to have a State Department that focuses on State Department, 
and we are not going to attempt to integrate them at all. And 
then, no one here could really have an argument, it seems to 
me, because what we are saying is DOD will do what DOD does and 
State will do what State does.
    But given that ultimately we want smart power, soft and 
hard power, but we want to be smart about how we deal with this 
issue, I say, good for DOD that they are attempting to look at 
the soft side and integrate it into what they do.
    So the bottom line to me and how I am going to evaluate it, 
and you tell me if you think I am on the right track or not, is 
I want DOD to come back in 6 months or a year, and I hope I am 
back here to hear them, and I want them to tell me how they 
have added and expanded the role of the Department of Defense 
to include the concerns of NGO's, the concerns of State and how 
they have done that.
    If, when they come back, what they have done is co-opted 
these areas but not utilized them effectively, then I say, 
well, this has been a failure.
    But I am more inclined to pat everybody on the back and 
say, good for you. This is the right concept. Now let's 
implement it.
    So I want each of you to react to what I said, and I will 
start with you, Doctor.
    Mr. Morrison. I agree with you that AFRICOM makes sense and 
it is right for the moment.
    I agree with you that we are coming off of a decade long or 
longer period of living with the legacy of Mogadishu in October 
1993 and the Rwanda genocide that followed in the Spring of 
1994 when we moved to a de facto policy of saying the U.S. 
military would not engage directly in Africa, and that legacy 
has been with us until very recently when the decision was 
taken.
    Mr. Shays. I wish I had added Rwanda, and I wish I had 
added Darfur to that list.
    Mr. Morrison. We are coming off of a dark period in which 
our lack of presence and coherence and leadership hurt us, I 
believe, in many ways in not being able to contribute enough to 
peacekeeping, not being able to contribute enough to building 
capacity within Africa.
    I do think, to add to your list, I think there are many 
ongoing partnerships in Africa on security, in the security 
sector that are functioning and that are valued by our African 
partners, and those should be the core. I think there is many 
positive changes that are happening on the continent.
    Mr. Shays. I am sorry. I said, let's react to the others. 
Thank you for asking me.
    Would you respond, Mr. Malan.
    Mr. Malan. Thank you, Congressman Shays.
    I, like you, believe that it makes sense to have a unified 
Command for Africa. Yes, let's give it resources. Let's give it 
human resources, balanced human resources.
    If DOD seems to be co-opting the Department of State and 
the U.S. Agency for International Development rather than 
integrating them as team players, the whole thrust of what I 
was trying to say is that they do not have the strength to play 
on the same team. It is a different league.
    Mr. Shays. They being?
    Mr. Malan. The Department of State human resources able to 
put on the AFRICOM team, we are looking at 13.
    Mr. Shays. Yes, I understand.
    Mr. Malan. So this is not a fault of DOD or the DOD 
component of AFRICOM. The concept is sound. It needs to be 
resourced, and it needs to be implemented.
    The problem with Africa is that the mission is strange 
because Africa is a continent or a geographic area of 
responsibility that is either in conflict or trying to 
transition from conflict or at risk of conflict. We have 
failed, failing states, states at risk.
    So the mission becomes wrapped up in conflict prevention, 
in post-conflict reconstruction, and this is sort of circular. 
It goes into development. So we are unavoidably across all 
these areas.
    It does make sense to have a unified geographic Command for 
Africa that does look more broadly than a narrow military 
mission because Africa is a mess.
    Thank you.
    Mr. Shays. Ms. Hicks.
    Ms. Hicks. I would agree with that. I would just add that 
for AFRICOM to truly be successful, it has to exist within a 
greater interagency whole. That is completely absent, and I 
think that is the thrust of what you are hearing everyone say 
today.
    AFRICOM shouldn't be blamed for trying to get interagency 
representation on its staff--that is a good thing--or even in 
its leadership.
    But to the extent that it moves, attempts to fill a void 
that should be filled by civilian leadership, that is a 
problem, and it is not a problem DOD can fix alone. It is a 
problem that the White House and the State Department need to 
fix.
    Mr. Shays. Yes, I hear you. Thank you.
    Mr. Bishop. Really, completely, AFRICOM makes sense. It has 
to be seen within the context of a growing militarization of 
our foreign aid programs which is a function of inadequate 
resourcing of the development and humanitarian assistance 
programs. In Africa, there has been a substantial increase in 
funding, but it is for PEPFAR. It is for MCC.
    It is not going into development. It is not getting at the 
roots of the disaffection that is likely to lead people into 
terrorist and other anti-American activities.
    Mr. Shays. You trigger and, Ms. Hicks, you kind of 
triggered this for me and you did as well, Ambassador. Would 
the argument be that whatever we do with AFRICOM besides 
expanding its non-military side, that we simply have to do a 
heck of a lot more with State and so on and, am I hearing from 
you, not have us think that because we transfer or add State 
Department functions to AFRICOM and leave State where it is, 
that is a good thing?
    In other words, the State has to be reinforced as well as 
moving certain activities into AFRICOM? That is kind of what I 
think I am hearing you say.
    Mr. Bishop. What I am trying to say, sir, is that I think 
AFRICOM should restrict its activities to what it does best, 
which is working with local military forces to increase their 
capability to engage in regional peacekeeping efforts. Leave 
development and humanitarian assistance to the professionals 
and the Congress fund the agencies.
    Mr. Shays. Separate from AFRICOM?
    Mr. Bishop. Separate from AFRICOM, yes.
    Mr. Shays. Would that be your position, Ms. Hicks?
    Ms. Hicks. I would say it a little bit differently. AFRICOM 
and all the combatant commands need to have interagency. It 
doesn't have to be representation but best works with 
representation in order to do their set of activities in a way 
that supports a holistic approach to foreign and national 
security policy.
    It doesn't mean they take over State Department functions. 
It means that they have effective liaison and coordination 
abilities, whether that be bodies or other kinds of processes 
in place.
    Mr. Shays. So you would argue that we beef up the State 
Department?
    Ms. Hicks. Absolutely, and AID. I think it is important to 
separate those.
    Mr. Shays. I put them together, but AID is one.
    Ms. Hicks. Yes.
    Mr. Shays. Thank you.
    And you agree, Mr. Malan?
    Mr. Malan. I would agree with Ms. Hicks. I would agree with 
Ms. Hicks on this issue. AFRICOM was set up, envisaged as a 
combatant command with the combatant word, small, and mainly as 
a capacity-building command across the security sector.
    The military cannot buildup the judicial system, the 
criminal justice triad. In Africa, this is integrated. Well, 
everywhere, this is an integrated problem, but in Africa we do 
need rule of law as a sine qua non for development. Rule of law 
is an interagency. It requires that expertise.
    Not having that within AFRICOM means that it is narrow 
military engagement maybe in counter-terrorism training and 
ignoring the other aspects, the foundations of rule of law that 
Africa needs.
    Thank you.
    Mr. Tierney. Thank you, Mr. Shays.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I thank each of our witnesses for their testimony.
    Ms. Hicks, if I could touch on two issues that you 
reference in your written testimony, and first is the issue of 
the Chinese involvement in Africa and what we are doing there 
more from a military lead versus their infrastructure 
involvement and pursuit of raw materials.
    I guess first is how you see the comparison with what we 
are now going to be moving forward with this new Command, how 
that matches up with the Chinese and how the nations in Africa 
will view us versus the Chinese in these efforts.
    Ms. Hicks. I am undoubtedly the least qualified at this 
table to comment. So I will give a brief comment and then maybe 
others will have more say.
    My impression is that the biggest distinguisher between the 
United States and China in Africa is the strings which we seem 
to attach to our assistance, how that assistance comes, and the 
United States certainly has interests or a value set that 
pushes it to attach strings to its assistance. That does not 
happen with China.
    My best impression is that the Chinese are interested in 
resource extraction from Africa, and they will do what is 
necessary largely on a privatized, pseudo-privatized basis to 
make that happen.
    I will leave it at that.
    Mr. Platts. Any of the other three want to comment?
    Mr. Morrison. We are happy to. There has been a lot of work 
done in the last 2 years on the expansion of China's engagement 
in Africa and what it means sectorally, and we can share that 
work with you. Much of it was done in CSIS and other 
organizations like Council on Foreign Relations.
    On the question of their engagement in the security sector, 
they have chosen to dramatically expand their support, direct 
support of U.N. peace operations globally. They have about 
1,500 personnel deployed across the world, about half of those 
in Africa in 8, I believe it is 8, operations. They just 
deployed this week 170 into Darfur. That is a special 
engineering unit.
    They have expanded their training of African military 
personnel significantly in this last period.
    There is a lot of friction around the way in which foreign 
aid is disbursed. They have made huge plays in energy-rich 
places particularly Nigeria, Equatorial Guinea, Sudan, Angola. 
Those are the really big plays that have been made, vast 
concessionary financing tied to commodity extraction.
    It has contributed to lifting commodity prices. It has 
created tensions in terms of harmonizing donor practices. It 
has led to a number of different dialogs that are ongoing. 
Those are not resolved, but I think there is reason to suggest 
that the Chinese are at least receptive to moving a dialog 
forward.
    Mr. Platts. Given that involvement of the Chinese, it seems 
all the more important that we have a greater involvement in 
Africa. But I guess as to this approach of it being more of a 
military led effort with all the other partners, how is that, 
do you think, perceived by these nations, our approach versus 
the Chinese approach of basically coming in to purchase or 
acquire the raw material?
    Are we seen in a more favorable light because we are there 
to try to help and protect our interests, but help, versus the 
Chinese there to just get something specific, the raw material?
    Mr. Morrison. I think the reception of the expanded U.S. 
engagement has been mixed just like the reception that the 
Chinese have received has been mixed. PEPFAR and MCC are 
enormously popular. The AFRICOM is a source of controversy in 
Africa.
    The Chinese have had President Hu Jintao visiting on a 
regular basis along with the Prime Minster and the Minister of 
Foreign Affairs at a very high pace, and they have encountered 
a lot of pushback from African human rights advocates, 
environmentalists, labor unions.
    Their arrival has also been generally received quite 
positively as the arrival of a major emerging superpower that 
brings a lot with it. Some of it is quite controversial, but 
some of it is quite beneficial.
    So I don't think that there has been a strategic clash 
between the United States and China within Africa in our minds, 
in their minds or in the minds of the African partners.
    Mr. Bishop. If I could jump in.
    Mr. Platts. I could get one more question. Yes.
    Mr. Bishop. If I could jump in, the Chinese presence has 
not been uniformly benign. Their no strings attached policy may 
be welcome.
    They are also the principal arms supplier to the government 
of Sudan. They are supplying arms to the government of 
Zimbabwe. They are protecting these two regimes diplomatically 
from the rest of the world that is witness to the genocide 
ongoing in Darfur and to a crisis which may reach appalling 
proportions in Zimbabwe.
    Thank you.
    Mr. Platts. Mr. Chairman, one more.
    I have one other question just to get your perspective, 
again, because you reference it in your testimony but the 
amount of developmental assistance that we are now providing 
from the military.
    I have been to Afghanistan and Iraq both a good number of 
times and have seen the effectiveness of the CERP funds and 
that ability to be flexible for those military leaders out 
there kind of on the front lines but also the importance of 
long-term stability and development that USAID and Section 1206 
and 1207 funds bring.
    Do you or, again, any of our panelists have an opinion of 
where we should be really committing more to one approach or 
another or should it continue to be a combination of CERP and 
more long-term development funds in the more traditional 
fashion?
    Ms. Hicks. I do think one of the problems with CERP is that 
there isn't really good tracking yet of CERP, but certainly 
anecdotal evidence indicates that CERP has been effective. So 
the jury is probably out technically.
    But I think just speaking to commanders, you do get the 
sense that they very much value CERP. They feel it is well 
worth its costs. So I do think in a named operation like we 
have in Iraq or Afghanistan, a program like CERP is very 
useful.
    DOD has asked to expand CERP worldwide. In our Task Force 
on Nontraditional Security Systems that Steve and I co- 
directed, we recommended not doing that. Because there is not 
good accounting yet of those funds, because it again is just 
preferencing DOD capabilities and ability to get the funds over 
other agencies, it is probably not a healthy direction to go.
    Instead, what we think ought to happen is that you ought to 
have CERP-like authorities, those kinds of flexible authorities 
and funds available on the civilian side. USAID does have a 
very small program that is CERP-like, but the dollars are, I 
don't have the figures off the top of my head, but the dollars 
are vastly different. It is not on the scale of CERP.
    So that is the direction we would go. We would rebalance 
back into the civilian side.
    Section 1206 is another great example where it is 
workaround. For the near term, we need the workaround because 
no one else can get that funding that DOD can to do the 
training of internal security forces.
    But in the long term, you don't want that decision being 
made by the Defense Department. You want that to be resident 
under the Foreign Assistance Act and to be resident in the 
Department of State. That is going to require some changes in 
how we think of the Foreign Assistance Act and how flexible we 
are with the authorities we give to AID and State.
    Mr. Platts. Is it safe or accurate to say that as far as 
the actual CERP funds in instances like Iraq and Afghanistan, 
where the military is truly engaged in military action, that 
type of flexibility is more appropriate, more critical and 
timely versus a region that the military may be out there 
taking the lead, but it is not the same immediate threat to the 
troops on the ground who are present and part of the effort?
    Ms. Hicks. Yes. I think that is exactly right.
    I would also add that the PRTs, the evolution of the PRTs 
has allowed AID and State to now have a say in how CERP funds 
are used, that they are now getting within that framework of 
what is it we want to do holistically for the country. So CERP 
is a great tool, but it is even better when it is part of a 
holistic framework that is civilian-led.
    Mr. Platts. I saw that in Jalalabad, that partnership that 
you are referencing, working.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Platts.
    Ms. McCollum, do you have any more questions?
    Ms. McCollum. Could I ask a little bit, and you kind of 
touched on it, the three of you, about the whole issue of 
funding? There is a lot of bells and whistles, especially with 
the new F process that State came up as far as the way its 
funding works versus funding within the military when they make 
a decision that they are going to fund something.
    And then AFRICOM, you touched on peacekeepers. You have 
talked about training. You have talked about police. You have 
talked about rule of law. You have talked about how we need, 
the next President needs to look at the reauthorization of how 
we provide foreign assistance and foreign aid.
    Should judiciary, police and peacekeeping and military, 
should everybody be sitting down at the table, figuring out how 
we are going to, who is going to do what, who is responsible 
for what? Because what we have in this country, very clearly, 
is there is the police and then there is the military, and in a 
lot of other places it gets all jumbled up and mixed in 
together.
    And then you have judiciary. We heard that quite a bit on 
our trip in Afghanistan. That is a development section that 
maybe we haven't focused on as much that we need to that might 
be more appropriate in State whereas other development maybe 
needs to be in a development agency or subagency or back to 
beefing up USAID.
    Ms. Hicks. I do, yes.
    I think, first of all, let me address your question on the 
F process versus funding in DOD. The F process is much maligned 
by many. I think that the intent of the F process, and we say 
this in our task force report, is actually right on. It is one 
of the very few places where you actually see an effort to take 
goals and link them all the way to programs and evaluate how 
those programs are doing on the MCC model.
    So I think the intent of the F process is very good because 
it actually would get you to a more holistic and efficient use 
of funds for the U.S. Government.
    Within DOD, the process is very similar to what they are 
doing in State under F in how security operation funds are 
planned in DOD, but it is internally. It is a single department 
planning internally for how to execute funds.
    The F process, I think, has the potential as a concept to 
be the beginning of an all government, all agencies of 
government approach to thinking about funding in various 
sectors and by region.
    On the issue of policing, if I interpreted your question 
correctly, policing is a particularly difficult issue for the 
United States because our Government, our constitutional 
Government is set up quite differently than most others. We do 
not have a national police force quite intentionally, and thus 
we do not have a very good source for international policing.
    What you hear out of Iraq and Afghanistan, for instance, is 
that when the military does the police training, it tends to 
look more paramilitary training. It is not actual policing 
training.
    When the training is led by the State Department or others, 
it tends to be handed off to contractors. Then, again, there 
has been less accountability in terms of how that policing is 
going.
    So I do think that is an area, a particular problem area 
for the U.S. Government that we haven't yet grappled with.
    Mr. Tierney. Thank you.
    I am going to give a quote that Mr. Malan had in his 
testimony and ask the other three panelists to respond.
    Mr. Malan said, ``Capacity-building is a long-term 
relationship-based activity rather than simply a menu of 
trainings or skills sets to be delivered in Africa by a variety 
of commercial contractors that have no diplomatic relations 
whatsoever with the host nations concerned.''
    So would the other panelists like to give us their thoughts 
on the issue of contracting and how the role of contractors is 
playing in our efforts to build capacity?
    Ambassador, maybe I will start with you.
    Mr. Bishop. I, not surprisingly, have a pro-NGO bias, and 
one of the paramount differences between the NGO's and the 
contractors is that the NGO's have a long-term commitment to 
countries in which they are operating. You mentioned Mercy 
Corps in your introductory remarks. They have been in 
Afghanistan since before the Taliban and through the Taliban, 
and they hope to remain there for a very long time.
    Contractors are a turn-key operation. They come in. They 
perform their work. They are paid, and they go. They don't have 
a continuing relationship with the people of the country in 
which they are working. They are not a vested interest in 
mentoring them.
    International Medical Corps in Afghanistan, they have been 
training medical personnel for over 20 years. They are now 
using some of those people in other parts of the world where 
they have operations. A long-term commitment is necessary for 
capacity-building.
    Mr. Tierney. Thank you.
    Ms. Hicks.
    Ms. Hicks. I agree.
    I do think it is worth pointing out that contractors are 
inevitable. They are part of our future. They have been part of 
our past, and the issue is how do you best use them. How do you 
make sure that the areas where things are inherently 
governmental are handled by the Government and not relegated 
really to contractors, and I think that was the gist of the 
testimony by Mr. Malan.
    And so, what you need to have is a framework for 
recognizing how you are going to use contractors to execute, at 
least in part, a program that is designed by the U.S. 
Government or even beyond the United States and how their role 
really fits into a broader framework.
    Mr. Tierney. Do you think that training police is 
inherently governmental?
    Ms. Hicks. I do. I think training any kind of security 
force is inherently governmental. That doesn't mean you can't 
use contractors to assist you in how you do that, but you have 
to think.
    What we do not do today well is think through those 
questions before we take on the tasks. What ends up happening 
is we relegate them to contractors, and then we pay the costs 
for that.
    Mr. Tierney. I share a little bit of Mr. Malan's alarm at 
that. I think we just basically fork it out to contractors and 
don't have much consideration for anything else these days.
    Doctor.
    Mr. Morrison. We have been using contractors to pretty good 
effect for almost 20 years in West Africa and in East Africa on 
peacekeeping support operations. The contractors are sustaining 
the camps in Darfur today. They deployed the Ghanaian and 
Nigerian and Malian forces into Liberia and into Sierra Leone.
    Mr. Tierney. Are those, in your mind, inherently 
governmental tasks that have been given up to contractors or do 
you think otherwise?
    Mr. Morrison. I think they, I mean they did this because 
they were able to do it, and the U.S. military preferred not 
to.
    Mr. Tierney. That doesn't really answer my question, does 
it?
    Mr. Morrison. I think they have been able to do this 
effectively. My own personal feeling is that if we had adequate 
personnel, U.S. military personnel to do the training of 
peacekeepers, we would get a higher value and a higher return 
in terms of our own credibility.
    When we turn to contractors, we are turning to them because 
there is a shortage and there is a cost factor.
    Mr. Tierney. But we have created the shortage.
    Mr. Morrison. So AFRICOM will inevitably rely on 
contractors as we already do. The question is will they have 
adequate personnel to do the things that they really should be 
dong themselves?
    Mr. Tierney. You say that because you believe there is no 
way out of this, that we have just all of sudden abdicated to 
contractors, and we can never get back our own human capacity? 
Is that why you make that statement?
    Mr. Morrison. Well, I just think that we are. In all, I 
mean we have 20,000 military contractors in Iraq today in 
addition to the troops that we have deployed there. I think 
that we will have some proportion of contractors that will 
continue to be part of our work. The question is are we going 
to staff up AFRICOM adequately to carry out most of the 
functions?
    Mr. Tierney. I think maybe you go back a step, and you say 
are we going to make a determination of what is inherently 
governmental and then assign those tasks and get the right 
personnel to do it so we only contract out those things that 
should have contractors working on it? I don't think we have 
disagreement there.
    Let me ask the human capacity question as we wind down. Do 
we have enough people that if we decided that we wanted to 
build our own human capacity back up, that we could go out and 
get talented people and bring them in for the tasks that need 
to be addressed?
    Or do we need to something, whether it is create an academy 
to train those people, or is it just a case of going out and 
identifying other institutions that exist and recruiting good 
people in?
    Mr. Bishop. The United States used to have an international 
police academy over at the end of Key Bridge, and a Greek movie 
brought that to an end.
    Mr. Tierney. What did?
    Mr. Bishop. A Greek movie or a movie by a Greek director 
brought that to an end when it portrayed the academy as having 
played a role in police atrocities in Brazil, and the academy 
was closed down.
    The world has changed a lot since that happened back, I 
believe, in the 1960's. Maybe it is time to take another look 
at it.
    Mr. Tierney. Ms. Hicks.
    Ms. Hicks. If your question is about U.S. civilian capacity 
and the need for a national academy here in the United States, 
I am not opposed to a national academy. I don't know that you 
need one.
    I think that you have a real spirit of public service in 
the United States that needs to be sort of fostered further. I 
think you have tremendously talented people. We have such a 
multicultural community and the ability to get folks the right 
language skills, the right kind of municipal governance skills, 
judiciary, etc.
    But we have not really put enough thrust behind that. In 
this past year, the year we are in, the administration has just 
now begun to really attempt to push its civilian reserve corps 
concept, but the reality is we have to go well beyond that to 
have the capacity and the talent on the civilian and the 
military side to deal with the challenges that are in front of 
us.
    Mr. Tierney. Mr. Malan.
    Mr. Malan. Not being an American, it would be sort of hard 
for me, but I do believe that this country is extremely rich in 
human resources, and I will give you one small anecdote.
    In my 3-year term as head of the research department at the 
Kofi Annan Peacekeeping Training Center in Ghana, I was blessed 
with about four or five young American research interns. They 
came to me with a master's degree. They came to work gratis, 
and they produced four or five times the research output of 
their West African counterparts, and there is a lot of unpaid 
interns doing great work with NGO's all around Africa.
    This country has the human resources. If they are offered a 
decent job and a career path, you could harness them.
    Thank you.
    Mr. Tierney. Thank you.
    Doctor.
    Mr. Morrison. I just want to call attention to the ILEA, 
the U.S. police training program based in Gaborone in Botswana. 
It was created during the second Clinton administration. It has 
been an effective institution, and it is a partnership with 
quite a range of African countries that have enthusiastically 
taken up the opportunity, and many of its personnel and 
training staff are African. This was a very worthy endeavor.
    Mr. Tierney. Thank you.
    Mr. Platts, do you have any further questions?
    Ms. McCollum.
    Ms. McCollum. Thank you so much, Mr. Chairman.
    Mr. Tierney. Thank you.
    We have other members of the committee that weren't able to 
get back. They were either on the floor or in other chambers. 
They had indicated an intention of trying to come back, and I 
give you their apologies for them because I know that they will 
be upset they didn't get a chance to ask questions.
    I want to just thank you on behalf of all of the members of 
the panel here. Your testimony has been incredibly insightful 
and helpful to us. You win the prize then of knowing that we 
are going to come back at you with some more requests for help 
and insight at some later point in time if you are amenable to 
that and accept our appreciation for the work that you do.
    I think you are serving a great responsibility for folks 
all across the world and particularly this country and 
appreciate your time here today as well. Thank you.
    Meeting adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
